SUPREME COURT OF THE UNITED STATES
TAURICE LEONARD BROWN,
Petitioner,
v. CASE NO.: 21-5237

MARK S. INCH, Secretary,
Florida Department of Corrections,

Respondent.
/

PROOF OF SERVICE PURSUANT TO RULE 29.5

 

I, Petitioner Taurice Leonard Brown, hereby certify that a true and
correct copy of the Petition for Writ of Certiorari filed in the above-styled cause
has been furnished to Counsel for the opposing party, Office of the Attorney
General, PL-01, The Capitol, Tallahassee, FL 32301-1050, by placing it in the
hands of the Santa Rosa Correctional Institution mailing officials for mailing, via

prepaid first class mail pursuant to the mail box rule (see institutional date

Is/ CP
Tatirice Leonard Brown, DC# J48890

Santa Rosa C.I. Annex
5850 East Milton Road
Milton, Florida 32583

stamp).
SUPREME COURT OF THE UNITED STATES

TAURICE LEONARD BROWN,
Petitioner,
Vv. CASE NO.: 21-5237

MARK S. INCH, Secretary,
Florida Department of Corrections,

Respondent.
/

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT

Petitioner hereby certifies that he knows of no other interested persons

regarding this case besides the listed parties above.

 

5850 East Milton Road
Milton, Florida 32583
